DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


      CBP’s Trusted Traveler Systems Using
       RFID Technology Require Enhanced
                    Security
                   (Redacted)




 Notice: The Department of Homeland Security, Office of Inspector General, has
 redacted this report for public release. The redactions are identified as (b)(2),
 comparable to 5 U.S.C. § 552(b)(2). A review under the Freedom of Information Act
 will be conducted upon request.




             Office of Information Technology
OIG-06-36                                                                May 2006
                                                                             1
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      May 31, 2006

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our oversight responsibility to promote economy, effectiveness, and efficiency within the
department.

This report assesses the strengths and weaknesses of controls over systems using Radio Frequency
Identification (RFID) at U.S. Customs and Border Protection (CBP). It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, technical scans,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to
all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents/Abbreviations

  Executive Summary ...................................................................................................................1

  Background ................................................................................................ 2

  Results of Audit........................................................................................... 6

       Enhanced Security Controls Are Needed to Limit Unauthorized Access to RFID
       Systems ................................................................................................................................6
       Recommendations..............................................................................................................10
       Management Comments and OIG Analysis ......................................................................10

       Improved Policy and Procedures Need to be Developed and Distributed.........................11
       Recommendation ...............................................................................................................12
       Management Comments and OIG Analysis ......................................................................12

       Audit Trails Need to be Reviewed Regularly ....................................................................12
       Recommendation ...............................................................................................................13
       Management Comments and OIG Analysis ......................................................................13

       Inadequate Implementation of FISMA Requirements On RFID Systems.........................13
       Recommendation ...............................................................................................................16
       Management Comments and OIG Analysis ......................................................................17

Appendices
  Appendix A:            Purpose, Scope, and Methodology .................................................................18
  Appendix B:            Management Response To Draft Report ........................................................19
  Appendix C:            Types of RFID Tags and Common RFID Operating Frequencies.................23
  Appendix D:            Photographs of SENTRI, NEXUS, and FAST Lanes ....................................24
  Appendix E:            DCL Lane Components for SENTRI/NEXUS Program................................26
  Appendix F:            Major Contributors to this Report ..................................................................27
  Appendix G:            Report Distribution.........................................................................................28

Abbreviations
  CBP             U.S. Customs and Border Protection
  CIO             Chief Information Officer
  DAA             Designated Accrediting Authority
  DCL             Dedicated Commuter Lane
  DHS             Department of Homeland Security

                    CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security
Table of Contents/Abbreviations
  FAST   Free and Secure Trade
  FISMA Federal Information Security Management Act
  GAO    Government Accountability Office
  Gen2   Generation 2
  GES    Global Enrollment System
  ISA    Interconnection Security Agreement
  NIST   National Institute of Standards and Technology
  OIG    Office of Inspector General
  OMB    Office of Management and Budget
  PIA    Privacy Impact Assessment
  POE    Port of Entry
  RFID   Radio Frequency Identification
  SENTRI Secure Electronic Network for the Travelers’ Rapid Inspection




             CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                   We audited the Department of Homeland Security (DHS) and select
                   organizational components’ security programs to evaluate the
                   effectiveness of controls implemented on Radio Frequency Identification
                   (RFID) systems. Systems employing RFID technology include tags and
                   readers on the front end and applications and databases on the back end.

                   RFID is a wireless technology that stores and retrieves data remotely from
                   devices. The technology allows sensitive information to be read and
                   written to tags and for numerous tags to be scanned simultaneously from a
                   distance. The flexibility and portability of RFID technology and devices,
                   as well as the information that resides on the tags, increase the need for
                   security and privacy controls.

                   Our objective was to determine whether U.S. Customs and Border
                   Protection (CBP) has implemented effective controls to protect critical
                   data processed by its trusted traveler systems. To address our objective
                   we: (1) interviewed personnel at CBP’s National Data Center;
                   (2) reviewed applicable DHS and CBP policies and procedures; (3)
                   conducted vulnerability assessments of the databases that collect and
                   process information; and (4) evaluated the effectiveness of physical
                   security and assessed the security controls over the RFID readers and
                   RFID-enabled cards and transponders at selected ports of entry (POEs) in
                   Detroit, MI; Blaine, WA; El Paso, TX; and Nogales, AZ.

                   CBP has implemented effective physical security controls over the RFID
                   tags, readers, computer equipment, and databases supporting the RFID
                   systems at the POEs visited. No personal information is stored on the tags
                   used for CBP. Traveler’s personal information is maintained in and can
                   be obtained only with access to the system’s database. Additional security
                   controls would be required if CBP decides to store travelers’ personal
                   information on RFID tags or migrates to universally readable Generation 2
                   (Gen2) products.

                   However, CBP has not developed adequate policies and procedures to
                   ensure that security controls are implemented consistently by all POEs to
                   protect its trusted traveler systems. In addition, CBP has not implemented
                   the necessary controls on the system’s back end to ensure that the data

          CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                              Page 1
                 captured and stored for the trusted traveler programs are properly
                 protected.

                 In addition, we determined that CBP did not ensure that its trusted traveler
                 systems fully comply with all Federal Information Security Management
                 Act (FISMA) requirements. For example, the systems reviewed did not
                 have a valid authority to operate, interconnection security and user
                 agreements were not reviewed annually, and security reviews of contractor
                 facilities were not performed.

                 For the systems utilizing RFID technology, we are recommending that the
                 CBP Commissioner direct its Chief Information Officer (CIO) to:

                 •   Develop and implement procedures to strengthen user account and
                     password management processes relating to the trusted traveler
                     systems. Procedures should include periodic vulnerability assessments
                     and reviews of all user access.
                 •   Ensure that all vulnerabilities identified for which risks have not been
                     assumed be remedied.
                 •   Develop and implement policy and procedures that address security
                     controls over all components of an RFID system.
                 •   Ensure that audit trails are reviewed, documented, and maintained on a
                     regular basis.
                 •   Ensure that all FISMA requirements are implemented, including
                     certification and accreditation.

                 Fieldwork was conducted from November 2005 through February 2006 at
                 selected locations. See Appendix A for our purpose, scope, and
                 methodology.

                 In response to our draft report, CBP concurred with our recommendations
                 and is in the process of implementing corrective measures. CBP’s
                 response is summarized and evaluated in the body of this report and
                 included, in its entirety, as Appendix B.

Background
                 RFID is a wireless technology that stores and retrieves data remotely on
                 devices called RFID tags. RFID can be used almost anywhere -- from
                 clothing tags to missiles. Technology components of an RFID system
                 consist of a tag, reader, and database (see Figure 1).



        CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                            Page 2
         Figure 1: Components of an RFID System




         In a typical RFID system, individual objects are equipped with a small,
         inexpensive tag that contains a transponder with a digital memory chip
         and a unique electronic product code. The RFID reader, which is an
         antenna packaged with a transceiver and decoder, emits a signal activating
         the tag so it can read and write data to the tag. The reader decodes the
         data in the tag’s integrated circuit, and that data is then passed to a host
         computer’s database for processing.

         The tags are small objects that can be attached to or incorporated into a
         product, much like the standard bar codes on products in the supermarket.
         The difference is that while it takes a laser to scan a standard bar code and
         read its information, an RFID tag stores its identifying code on a tiny
         microchip and transmits it wirelessly to a reader device. RFID technology
         allows more tags to be scanned simultaneously from a greater distance,
         and it allows individual items - not just types of items - to be assigned
         unique identifying codes. There are three types of tags in use today:
             •   Active tags can store large amounts of information using a power
                 source within the tag.
             •   Passive tags do not use a separate external power source but rather
                 obtain operating power from the tag reader.
             •   Semi-passive tags use an internal power source to monitor
                 environmental conditions, and require radio frequency energy
                 transferred from the reader to power a tag’s response (similar to
                 passive tags).

         Generation 1 tags use proprietary technology, which means that if
         Company A puts an RFID tag on a product it cannot be read by
         Company B unless both use the same RFID system supplied from the
         same vendor. In addition, a new RFID standard, Gen2, was ratified in
         December 2004 by the RFID international standards organization
CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                    Page 3
                          EPCglobal. The purpose of the Gen2 standard is to improve the
                          interoperability among various manufacturers’ RFID products and systems
                          and different frequencies used in different countries worldwide. Gen2
                          features enhanced security controls, too.

                          There are four main frequencies used for RFID systems: low, high,
                          ultrahigh, and microwave. Generally, the higher the frequency, the greater
                          the distance from which tags can be read. See Appendix C for a summary
                          of the typical characteristics of RFID tags and the operating frequencies
                          for passive tags.

                          The use of RFID technology has introduced new security risks to agency
                          systems. The flexibility and portability of RFID technology and devices
                          increase the need for security. Without effective security controls, data on
                          a tag can be read by any compliant reader; data transmitted through the air
                          can be intercepted and read by unauthorized devices; and data stored in the
                          system databases can be accessed by unauthorized users. In addition, a
                          May 2005 Government Accountability Office (GAO) report raised privacy
                          concerns related to the use of tags and databases. 1 Among the privacy
                          issues is notifying individuals of the existence or use of the technology.

                          CBP deploys RFID technology on its “trusted traveler” programs at
                          designated border POEs to expedite the processing of pre-approved,
                          international, and low-risk commercial and commuter travelers crossing
                          the borders. 2 The commercial program is called Free and Secure Trade
                          (FAST) and is propagated on the northern and southern borders. The
                          commuter program is known as the Secure Electronic Network for the
                          Travelers’ Rapid Inspection (SENTRI) on the southern border and
                          “NEXUS” on the northern border. 3

                          SENTRI/NEXUS

                          The use of RFID technology was introduced into SENTRI in
                          November 1995 and NEXUS in June 2002. As of January 2006,
                          approximately 88,000 travelers were enrolled in SENTRI and 81,000
                          travelers were enrolled in NEXUS.

1
  Radio Frequency Identification Technology in the Federal Government (GAO-05-551, May 2005).
2
  Use of the term “trusted traveler” program(s) in this document is meant to encompass and include all programs
designated by DHS and/or CBP as either “registered traveler” or “trusted traveler” programs. “Trusted traveler” and
“registered traveler” programs typically require the same or similar types of personnel information to be submitted
by an individual; the difference between the types of programs is the greater level of vetting and screening
performed upon participants in “trusted traveler” programs.
3
  Appendix D contains photographs of a SENTRI, NEXUS, and FAST lane.

                CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                                      Page 4
         There are two systems that support the SENTRI/NEXUS program:
         (1) Dedicated Commuter Lane (DCL) - is the toll lane configuration
             deployed at the POEs to read the RFID transponders and cards that are
             issued to travelers and vehicles registered in SENTRI/NEXUS. DCL
             consists of RFID readers, antennas, laser sensors, and video cameras.
             See Appendix E for depiction of DCL lane components for
             SENTRI/NEXUS.
         (2) Global Enrollment System (GES) - is a web-based system used to
             collect information for travelers and vehicles that are registered in
             SENTRI/NEXUS. Applicants’ data (for example, biographic data,
             photo of traveler, results of background check) is stored in a GES
             database. At the time of our fieldwork, CBP had incorporated all local
             POE databases into a centralized database except for one POE at
             Champlain, New York.

         Currently CBP deploys Generation 1 “passive” RFID tags and Ultra High
         Frequency readers. Identification cards embedded with RFID tags are
         issued to frequent travelers who are enrolled in SENTRI/NEXUS. Within
         SENTRI, transponders are issued to travelers and drivers to place on their
         vehicles. The tags contain only a unique number, which is associated with
         the traveler or vehicle information that is stored in the system database.
         CBP is in the initial stages of identifying the resources required to migrate
         to Gen2 technology for its SENTRI/NEXUS program but they have not
         established a timeframe yet.

         FAST

         The FAST program became operational in December 2002. As of
         November 2005, there were a total of 97 lanes that were equipped with
         RFID readers installed at 19 border ports; 65,000 drivers have been
         approved; and 50,000 trucks have been registered in the FAST program.
         Applicants’ data (for example, biographic data, driver’s license, passport
         number, criminal record) is stored in a FAST database.

         Currently, CBP deploys Generation 1 “passive” RFID tags and Ultra High
         Frequency readers. Identification cards embedded with RFID tags are
         issued to frequent drivers who are enrolled in FAST. Transponders are
         issued to drivers to place on their vehicles. The tags contain only a unique
         number, which is associated with the driver or vehicle information that is
         stored in the system database. CBP has no plans to migrate FAST to
         Gen2.


CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                    Page 5
                   DHS issued its Sensitive Systems Policy Publication 4300A (DHS Policy)
                   and its companion, DHS Sensitive Systems Handbook (DHS Handbook),
                   to provide direction to its components regarding the management and
                   protection of sensitive systems. Additionally, the policy outlines
                   management, operational, and technical controls (including wireless
                   communications, identification, authorization, and access controls)
                   necessary to ensure confidentiality, integrity, availability, and authenticity
                   within the DHS information technology infrastructure and operations.
                   DHS has not developed a specific policy associated with the use of RFID
                   technology. The CBP Information Systems Security Policies and
                   Procedures Handbook HB1400-05B aligns with the DHS Policy and
                   Handbook and provides direction to CBP information technology users.

Results of Audit

  Enhanced Security Controls are Needed to Limit Unauthorized
  Access to RFID Systems
                   CBP has not implemented effective security controls over all components
                   of its RFID systems. To assess the security of CBP’s RFID systems, we
                   interviewed information technology personnel at its National Data Center;
                   performed vulnerability assessments on the GES; reviewed access
                   privileges to the GES application; evaluated physical security over RFID
                   tags, readers, and computer equipment at the sites visited; and tested for
                   wireless signals at selected POEs in Detroit, MI; Blaine, WA;
                   Nogales, AZ; and El Paso, TX. Also, we reviewed the Top Secret
                   Security software configuration settings, which are used to control access
                   to the database, for the FAST database on the mainframe computer, in
                   addition to the database schema and mainframe security logs and
                   configuration files. The following table depicts the systems for each of
                   the POEs visited during our audit.

                    Port of Entry                             SENTRI          NEXUS        FAST
                    DeConcini (Arizona)                            X                        X
                    Winsor Tunnel (Michigan)                                      X
                    Ambassador Bridge (Michigan)                                  X         X
                    Port Huron (Michigan)                                         X         X
                    Bridge of the Americas (Texas)                                          X
                    Port Zaragosa (Texas)                          X
                    Pacific Highway (Washington)                                  X         X



          CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                              Page 6
                                    CBP ensured that effective physical controls were implemented over the
                                    RFID tags, readers, and computer equipment supporting the trusted
                                    traveler systems at the POEs visited. We used two easily obtainable RFID
                                    readers to assess whether unauthorized users could obtain information
                                    stored on the tags. 4 We were unable to communicate or read the
                                    information stored on the SENTRI/NEXUS and FAST cards and
                                    transponders. Furthermore, we performed additional testing in a
                                    laboratory environment with a more sophisticated reader but we were
                                    unable to read or obtain any information from the RFID tag. 5

                                    While data on the RFID tags is not encrypted and could be subject to
                                    interception with sophisticated RFID readers, the tags contain no personal
                                    information. To obtain personal information, data on the tag must be
                                    combined with sensitive information stored on the databases that support
                                    the trusted traveler programs. In the future, additional controls should be
                                    implemented if CBP decides to store travelers’ personal information on
                                    the SENTRI/NEXUS and FAST cards and transponders or migrate to
                                    universally readable Gen2 products.

                                    Our assessments of the GES application, centralized GES database, the
                                    remaining local GES database at Champlain, New York, and FAST
                                    database identified several weaknesses in user administration, access
                                    controls, and auditing. These weaknesses may be exploited by a user to
                                    gain unauthorized and undetected access to sensitive data. Lacking
                                    procedures to ensure that all vulnerabilities and weaknesses are identified
                                    and reviewed, management cannot ensure that the data in its critical
                                    systems is secure.

                                    User Account and Password Management Weaknesses

                                    CBP had ineffective user account and password management over its
                                    systems using RFID technology. While DHS has developed guidelines to
                                    implement strong passwords to restrict access to sensitive data, the results
                                    of our review indicate that these guidelines have not been implemented.
                                    In addition, the controls that have been implemented are ineffective, as
                                    CBP had established weak, inappropriate, and inconsistent password
                                    configurations over its GES and FAST databases.




4
    --------- -- --------- - -------- - ------------ ---- ------------------- ---- - ------------ -----------
5
    ---------- ----- --- - --------- -- - - ---- --- ---- - --
                                                            -
                       CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                                                       Page 7
         SENTRI/NEXUS

         During our review of the GES databases, we identified the following
         vulnerabilities:
             •   -----------------------------------------------------------------------------
             •   --------------------------------------------------- -----------------------
                 ---------------------------- ------------ -------------------------------------
                 -------------------------------------- ---------------------------------------
                 ---- - -------------------------------------------------------------------------
                 --------------------------------------------------------------
             •   -------------------------------------------- ---------- -----------------------
                 ------ - ------------------------------ ------------------------------------
                 ----------------------------------- - ---- ---------------------------------
                 --------------------
             •   --------------------------------------------------------------------------
                 ------------------------------------------------- --------------------------
                 -----------------------------------------------------

         In addition, our review of GES authorized users identified ten users from
         the El Paso POE who used their social security number as a user ID. CBP
         stated that these user IDs were established when the system was being
         tested at the POE and were never changed when the system went into
         production. Since social security numbers are highly sensitive, CBP
         should not use social security number as users IDs; this information is
         captured in audit trail reports and other security documents. Improper
         access to and disclosure of users’ social security number could lead to
         fraudulent activities or privacy violations.

         FAST

         Our review of account policy settings determined that CBP had weak,
         inappropriate, or inconsistent password configurations that may not be
         effective to protect sensitive data stored on the FAST database:
             •   ------- -- -- - -------------------------- -- ---------------- - ------------
                 ---------------------------------------------
             •   ------------- -- ------------------------ --------------------------------------
                 ------- ----- -------------------------- ----
             •   ---------------------------------------- -------------- ----- --------------------
                 -----------------------



CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                    Page 8
                           Periodic reviews of security settings by administrators would identify
                           security weaknesses in user and password management. Weaknesses in
                           user accounts and passwords may result in inappropriate access to CBP
                           sensitive data. Passwords are important - they are often the first line of
                           defense against hackers or insiders who try to obtain unauthorized access
                           to a computer system.

                           Access Privileges Were Not Appropriately Restricted

                           CBP does not ensure that access to travelers’ personal data is limited only
                           to those users requiring the access in order to perform their job functions.
                           For instance, seven Headquarter users, in managerial positions, were
                           granted access privileges to update individual applicants’ personal
                           information, capture applicants’ biometric data, and issue and disable
                           RFID cards in the SENTRI/NEXUS system - even though their job duties
                           do not require such access. These access privileges should be limited to
                           personnel at GES enrollment centers where RFID cards and transponders
                           are issued. 6

                           Additionally, we determined that 22 CBP database administrators were
                           given access to the FAST DB2 database system even though all are not
                           responsible for database maintenance. At the time DB2 was installed,
                           CBP management decided to grant all database administrators access to all
                           DB2 systems, including FAST.

                           In addition, CBP could locate access authorization requests for only four
                           of the 22 database administrators. CBP informed us that the majority of
                           the users were established over 10 years ago and it is their policy to retain
                           user access requests for three years. The documentation supplied for the
                           four users was either an email requesting database administration access,
                           or the document had no indication that it was reviewed or approved by
                           senior managers, security managers, or system owners.

                           DHS policy requires that access control follow the principles of least
                           privilege and separation of duties. Principles of least privilege require that
                           each user in a system be granted the most restrictive set of privileges (or
                           lowest clearance) needed for performance of authorized tasks. The


6
  The GES enrollment center interviews the travelers when the traveler is found eligible. During the interview, a
photograph and fingerprints of the applicant are taken. Applicant’s personal and biometric data are then submitted
to query against other law enforcement databases for background checks or prior criminal records. If the traveler is
approved for the SENTRI/NEXUS program, a RFID card is issued to the traveler and a transponder/windshield
sticker will be issued to the vehicle, when applicable.

                 CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                                       Page 9
         application of this principle limits the damage that can result from an
         accident, error, or unauthorized use.

         Access authorizations should be documented on standard forms,
         maintained on file, approved by senior managers, and securely transferred
         to security managers. All active approved authorizations should be
         maintained on file. System owners should periodically review access
         authorizations listing and determine whether user access authorizations are
         appropriate.

         Recommendations

         We recommend that the Commissioner, CBP, direct its CIO to:

         1. Develop and implement procedures to strengthen user account and
            password management processes relating to the GES and FAST
            systems. Procedures should include periodic vulnerability
            assessments, review of configuration settings, and reviews of all user
            access and user access forms.

         2. Ensure that all vulnerabilities identified for which risks have not been
            assumed be remedied.

         Management Comments and OIG Analysis

         CBP agreed with recommendation 1. CBP has made many changes to
         strengthen user accounts and password management processes. In
         addition, CBP is in the process of updating mainframe security and
         operating system software to support additional password complexity
         management. CBP is working to develop a process to periodically review
         access controls and anticipates that all users will be validated beginning
         September 25, 2006. CBP plans to implement this recommendation fully
         by October 1, 2006.

         We agree that the steps that CBP has taken, and plans to take, begin to
         satisfy this recommendation. However, CBP did not specifically address
         whether it will perform periodic vulnerability assessments on its databases
         and review user access forms.

         CBP agreed with recommendation 2. CBP has initiated a requirement to
         track, on a monthly basis, all Plan of Action and Milestones developed to
         remedy vulnerabilities and risks. CBP plans to implement this
         recommendation by October 1, 2006.

CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 10
                           We agree that the steps that CBP plans to take satisfy this
                           recommendation.

    Improved Policy and Procedures Need to be Developed and
    Distributed
                           CBP has not developed adequate policy or procedures to ensure that
                           security controls are implemented to protect its systems using RFID
                           technology. CBP personnel indicated that its current wireless policy is
                           sufficient and there was no need to address RFID technology. While CBP
                           has developed a wireless policy that addresses other wireless technologies,
                           such as 802.1x, Bluetooth and Blackberry, we determined that CBP’s
                           wireless policy is incomplete, as it does not address the controls needed to
                           protect the data stored and processed by systems using RFID technology.
                           For example, CBP’s wireless policy does not specify the controls needed
                           to mitigate vulnerabilities that are susceptible to RFID technology, such as
                           counterfeiting or cloning, 7 replay, 8 and eavesdropping. The policy should
                           specify that only authorized RFID readers can read and process the
                           information from the tag, and ensure that data stored on the tag is
                           protected from unauthorized modification.

                           Operating procedures were developed to implement SENTRI/ NEXUS
                           and FAST programs at the POEs. However, they do not address all
                           aspects of RFID technology, such as the physical security of unused RFID
                           cards and proper destruction of damaged RFID cards. Furthermore, CBP
                           has not developed detailed recovery procedures for POE staff to resume
                           operation in the event of SENTRI/ NEXUS or FAST system disruptions.
                           Some of the POEs have developed their own procedures in lieu of
                           guidance from CBP headquarters.

                           Issuing a sound RFID policy is the first step to ensuring adequate controls
                           are developed and implemented to protect CBP’s systems employing the
                           technology or mitigating the risks associated with the use of RFID.
                           Furthermore, RFID systems operating without required security

7
 Cloning an RFID tag occurs when an attacker produces an unauthorized copy of a legitimate tag.
8
 A replay is an attack when a legitimate data transmission is fraudulently repeated, either by the originator or by an
adversary who intercepts the data and retransmits it.




                 CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                                       Page 11
                management practices increase the possibility that security controls
                protecting DHS systems can be circumvented.


                Recommendation

                We recommend that the Commissioner, CBP, direct its CIO to:

                3. Develop and implement policy and procedures that address security
                   controls over all components of an RFID system; and ensure that
                   policies and procedures are distributed to all affected POEs and
                   personnel.

                Management Comments and OIG Analysis

                CBP agreed with recommendation 3. CBP will draft an Interim Policy
                Letter to address policy and procedures for security controls over all
                components of an RFID system. Once it becomes a permanent policy, it
                will be incorporated into CBP’s Information Systems Security Policies
                and Procedures Handbook. CBP plans to implement this recommendation
                by July 15, 2006.

                We agree that the steps that CBP plans to take satisfy this
                recommendation.

Audit Trails Need to be Reviewed Regularly
                CBP does not ensure that audit trails are regularly reviewed or maintained
                to detect modification or unauthorized access to the GES database. While
                user activities are captured in a GES application audit trail report, CBP has
                ------------------------ ------------------- -------------- ---------------------
                ----- ------------------ ------------------------------------------ ---------------
                ------------------- . Furthermore, CBP administrators did not consistently
                use application audit trails to monitor user activities and there was no
                documentation to support that audit trails were reviewed regularly.

                CBP personnel indicated that the GES application audit trail reports
                sufficiently captured modification access for all users and there was no
                need to enable the logging capability on the database. Furthermore, the
                contractor responsible for reviewing the audit trail reports was not
                provided with CBP’s procedures to ensure audit trail reports are reviewed
                regularly.


       CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                          Page 12
                 DHS policy requires that audit trails be reviewed at least once a week.
                 Audit trails can track the identity of each user as well as the time and date
                 of access and log off. In addition, audit trails can capture all activities
                 performed during a session and can specifically identify those activities
                 that have the potential to modify, bypass, or negate the system’s security
                 safeguards.

                 Without prompt and appropriate reviews and responses to security events
                 or incidents, violations could occur continuously and cause damage to an
                 entity’s resources without detection. As a result, increased risks exist that
                 CBP may not detect unauthorized activity or determine the users who are
                 responsible.

                 Recommendation

                 We recommend that the Commissioner, CBP, direct its CIO to:

                 4. Determine the events that should be recorded in the audit trails; and
                    ensure that audit trails for all systems are reviewed on a regular basis
                    and maintained.

                 Management Comments and OIG Analysis

                 CBP agreed with recommendation 4. CBP will create a process directing
                 the Information Systems Security Officers to review, document, and
                 maintain audit trails. CBP plans to implement this recommendation by
                 October 31, 2006.

                 We agree that the steps that CBP plans to take satisfy this
                 recommendation.

Inadequate Implementation of FISMA Requirements On RFID
Systems
                 CBP does not ensure that all FISMA requirements are met on its systems
                 using RFID technology. Specifically, FISMA requires that each agency
                 develop, document, and implement an agency-wide information security
                 program. The security program should provide security for the
                 information and information systems that support the operations and assets
                 of the agency, including those provided or managed by another agency,
                 contractor, or other source. Agencies are required to produce a privacy
                 impact assessment (PIA) when developing an information technology

        CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                           Page 13
         project or when redesigning a business process that incorporates new
         technology. Implementing the security practices required in FISMA can
         help strengthen the security of RFID systems.
         Certification and Accreditation

         We determined that CBP’s RFID systems were not properly certified and
         accredited. The interim authority to operate for SENTRI/NEXUS expired
         in February 2005. The methodology used to certify and accredit FAST
         was inconsistent with applicable Office of Management and Budget
         (OMB), National Institute of Standards and Technology (NIST), and DHS
         guidance. For example,
             •   FAST was included in the certification and accreditation for many
                 applications and servers at CBP headquarters. However, there was
                 no mention of the FAST system in the system security plan.
             •   CBP did not re-certify and accredit FAST after it was migrated
                 from an Oracle database on a Sun Solaris to a DB2 database on a
                 mainframe computer.

         CBP personnel informed us that they were in the process of certifying and
         accrediting DCL, GES, and FAST and expected to have all three systems
         certified and accredited by September 2006.

         Privacy

         CBP has not informed all travelers about the use of RFID technology in
         CBP’s trusted travelers program and the possibility that applicants’ data
         may be shared with other agencies. CBP completed the GES PIA in
         December 2005 and plans to use the PIA to address privacy related issues
         for SENTRI/NEXUS and FAST. However, the GES PIA has not been
         approved by the Secretary and published in the Federal Register. Our
         review of the GES PIA determined that it does not specifically mention
         each of the agencies with which CBP shares FAST data. Furthermore, we
         determined that not all SENTRI/NEXUS and FAST travelers are notified
         of the use of RFID either in writing or verbally. Last, there is an
         inconsistent approach to informing individuals at the POEs about the use
         of RFID - some POEs informed individuals in writing or verbally while
         others did not.

         The widespread adoption of the RFID technology in the federal
         government can raise privacy concerns from citizens. A GAO report
         raised several privacy concerns related to the use of RFID technology to



CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 14
                           track the movement of individuals traveling within the United States. 9
                           Specifically, the GAO report identified issues associated with RFID
                           implementation including notifying individuals about the existence or use
                           of the RFID technology; tracking an individual’s movements; profiling an
                           individual’s habits; and allowing for secondary uses of information.

                           Review of Security Controls Over Contractors and Interconnected
                           Systems Is Needed

                           CBP has not performed annual security reviews at all contractor facilities
                           that support the trusted traveler program to evaluate whether adequate
                           controls have been implemented to protect the data processed.
                           Specifically, Mellon Bank is contracted by CBP to process all FAST RFID
                           transponder and driver card requests from applicants along the
                           U.S./Mexican and U.S./Canadian borders. Mellon Bank electronically
                           transfers data between CBP and the bank. However, CBP has not
                           performed annual security reviews to evaluate the effectiveness of controls
                           implemented at Mellon Bank.

                           Also, CBP has not reviewed the effectiveness of the security controls for
                           the interconnection between Mellon Bank and CBP since an
                           Interconnection Security Agreement (ISA) was established in May 2004.
                           The ISA was not signed by the FAST systems’ Designated Accrediting
                           Authority (DAA), as required by applicable NIST and DHS guidance.
                           Our review of the ISA disclosed that the agreement has not been updated
                           to reflect the current policies and technical environment. For example, we
                           identified the following:
                               •   Throughout the agreement references are made to CBP’s previous
                                   security policy and procedures handbook (dated June 2001) - not
                                   the one that was issued in February 2005.
                               •   Mellon Bank is currently deploying a different router used for
                                   encryption.

                           We determined that, due to management oversight, CBP has not
                           performed security reviews at Mellon Bank. However, CBP personnel
                           indicated that security reviews at Mellon Bank are planned for 2006.

                           Furthermore, our review of the user agreement between CBP and the
                           Federal Bureau of Investigation for the sharing of applicant information in
                           performing background checks revealed that the document does not

9
    GAO-05-551, Radio Frequency Identification Technology in the Federal Government (May 2005).

                  CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                                     Page 15
         contain specific terms and conditions for sharing data and information
         resources in a secure manner. Specifically, the agreement does not
         identify the detailed responsibilities of both organizations and the timeline
         for terminating or reauthorizing the interconnection. In addition, there is
         no documentation to support that the agreement has been reviewed since it
         was originally signed in 1990 to ensure that the terms agreed to are still
         applicable and appropriate.

         FISMA requires that agencies provide adequate security for the
         information and information systems that support the operations and assets
         of the agency, including those provided or managed by another agency or
         contractor. OMB Circular A-130 requires that written management
         authorization be obtained prior to connecting with other systems or
         sharing sensitive data/information. NIST Special Publication 800-47
         “Security Guide for Interconnecting Information Technology Systems”
         and DHS policy require the development of an ISA, which specifies the
         technical and security requirements of the interconnection, and a
         Memorandum of Understanding that defines the responsibilities of the
         participating organizations. Furthermore, each organization should ensure
         that its respective systems are certified and accredited in accordance with
         applicable guidelines before interconnecting their information systems.

         Since establishing an interconnection may represent a significant change
         to the connected systems, each entity should recertify and reaccredit its
         respective system to verify that existing security controls remain effective.
         In addition, one or both entities should review the security controls for the
         interconnection at least annually or whenever a significant change occurs
         to ensure the controls are operating properly and are providing appropriate
         levels of protection. DHS policy and NIST guidance require components
         to document interconnections with other networks with an ISA signed by
         both DAAs, and review the agreement annually to ensure that it is
         effective and current.

         Without evaluating the effectiveness of controls implemented at its
         contractor facilities, CBP cannot ensure that security controls
         implemented are working as intended or that sensitive data processed and
         stored by its contractors is protected from unauthorized access and
         potential misuse. Security testing can lead to the discovery of potential
         vulnerabilities. Interconnecting information systems can expose the
         participating organizations to additional security risks. When one of the
         connected systems is compromised or not designed with adequate security
         controls, the interconnection could be used as a conduit to compromise the
         other system and the data that is stored, processed, or transmitted.

CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 16
         Recommendation

         5. We recommend that the Commissioner, CBP, direct its CIO to:

                 •   Certify and accredit all systems using RFID technology in
                     accordance with OMB, NIST, and DHS guidance.
                 •   Ensure that annual security reviews be performed at all
                     contractor facilities.
                 •   Ensure that all ISAs and user agreements are reviewed and
                     updated yearly.
                 •   Ensure that all travelers are informed of the use of RFID and
                     that the PIA reflects all organizations that CBP shares data.

         Management Comments and OIG Analysis

         CBP agreed with recommendation 5. CBP will certify and accredit GES
         by June 2006 and the FAST system by July 2006. CBP will review all
         facilities when the systems they fall under are reviewed. CBP has
         developed a database to track ISAs and user agreements, which will be
         tracked monthly and updated yearly. CBP is currently providing reference
         guides about the use of RFID to travelers during the enrollment process
         and will revise and distribute a new guide by December 2006. CBP plans
         to implement this recommendation by December 31, 2006.

         We agree that the steps that CBP has taken, and plans to take, begin to
         satisfy this recommendation. However, CBP did not specifically address
         whether it will ensure that the PIA reflects all organizations that CBP
         shares data.




CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 17
                  Appendix A
                  Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                  Our objective was to determine whether CBP has implemented effective
                  controls to protect critical data processed by its RFID systems from
                  unauthorized access. Specifically, we determined whether: (1) CBP
                  developed adequate policies and procedures to ensure the confidentiality,
                  integrity, and availability of data contained on its RFID systems;
                  (2) adequate physical and logical security controls are implemented on its
                  RFID systems; (3) controls implemented to protect the privacy of personal
                  data collected and processed by RFID devices were adequate; and,
                  (4) systems using RFID technology are in compliance with FISMA
                  requirements.

                  To accomplish our audit, we conducted fieldwork at selected POEs
                  located at: Nogales, Arizona; Detroit, Michigan; El Paso, Texas; and
                  Blaine, Washington. We interviewed personnel at the CBP National Data
                  Center, Mellon Bank, and at selected POEs. In addition, we reviewed and
                  evaluated DHS and CBP security policies, procedures, and other
                  appropriate documentation.

                  During the audit, we reviewed database settings and used a software tool
                  (Internet Security Systems’ Database Scanner) to detect and analyze
                  vulnerabilities on databases servers. Also, we used two RFID tools
                  (spectrum analyzer and card reader) to attempt to gain information about
                  the RFID usage at the POE. Upon completion of the assessments, we
                  provided CBP the technical reports detailing the specific vulnerabilities
                  detected on their databases and the actions needed for remediation.

                  We conducted our audit between November 2005 and February 2006
                  under the authority of the Inspector General Act of 1978, as amended, and
                  according to generally accepted government auditing standards. Major
                  OIG contributors to the audit are identified in Appendix F.

                  The principal OIG points of contact for the audit are Frank Deffer,
                  Assistant Inspector General, Office of Information Technology at
                  (202) 254-4100 and Edward G. Coleman, Director, Information Security
                  Audits Division at (202) 254-5444.




         CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                            Page 18
         Appendix B
         Management Response To Draft Report




CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 19
         Appendix B
         Management Response To Draft Report




CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 20
         Appendix B
         Management Response To Draft Report




CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 21
         Appendix B
         Management Response To Draft Report




CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                   Page 22
                     Appendix C
                     Types of RFID Tags and Common RFID Operating Frequencies




                         Typical Characteristics of RFID Tags
 Types of Tags               Power Supply                  Read Range             Type of Memory
Active               Internal battery                     Up to 750 feet         Read-write
Semi-passive         Internal battery                     Up to 100 feet        Read-write
Passive              External (from reader)               Up to 20 feet         Mostly read-only




            Common RFID Operating Frequencies for Passive Tags
        Frequency                    Typical read                       Examples of use
                                    range and rate
Low              125 KHz          1.5 feet; low           Access control, animal tracking, point of
frequency                         reading speed           sale application.
High             13.56 MHz        3 feet; medium          Access control, smart cards, item level
frequency                         reading speed           tracking.
Ultrahigh        860-930          Up to 15 feet; high     Pallet tracking, supply chain
frequency        MHz              reading speed           management.
Microwave        2.45/5.8         3 feet; high            Supply chain management.
frequency        GHz              reading speed




            CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                               Page 23
         Appendix D
         Photographs of SENTRI, NEXUS, and FAST Lanes



         Picture 1 – SENTRI Lane in El Paso, Texas




         Source: Office of Inspector General



         Picture 2 – NEXUS Lane in Blaine, Washington




         Source: Office of Inspector General




CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                    Page 24
         Appendix D
         Photographs of SENTRI, NEXUS, and FAST Lanes



         Picture 3 – FAST Lane in El Paso, Texas




         Source: Office of Inspector General




CBP’s Trusted Traveler Systems Using RFID Technology Require Enhanced Security

                                    Page 25
       Appendix E
       DCL Lane Components for SENTRI/NEXUS Program




CBP’s Trusted Traveler Program Systems Using RFID Technology Require Enhanced Security

                                                      Page 26
       Appendix F
       Major Contributors to this Report



       Information Security Audits Division

       Edward G. Coleman, Director
       Jeff Arman, Audit Manager
       Chiu-Tong Tsang, Audit Team Leader
       Charles Twitty, Auditor
       Swati Mahajan, Information Technology Specialist
       Karen Nelson, Referencer

       Advanced Technology Division

       Lane Melton, Senior Security Engineer
       Michael Goodman, Security Engineer




CBP’s Trusted Traveler Program Systems Using RFID Technology Require Enhanced Security

                                  Page 27
       Appendix G
       Report Distribution



       Department of Homeland Security

       Secretary
       Deputy Secretary
       Chief of Staff
       Deputy Chief of Staff
       General Counsel
       Executive Secretary
       Assistant Secretary, Legislative and Intergovernmental Affairs
       Assistant Secretary, Policy
       Assistant Secretary, Public Affairs
       CBP, Commissioner
       CBP, Chief Information Officer
       CBP, Audit Liaison
       Chief Information Officer
       Chief Information Security Officer
       Director, Departmental GAO/OIG Liaison Office
       Director, Compliance and Oversight Program, Office of CIO
       Chief Information Officer Audit Liaison

       Office of Management and Budget

       Chief, Homeland Security Branch
       DHS OIG Budget Examiner

       Congress

       Congressional Oversight and Appropriations Committees, as appropriate




CBP’s Trusted Traveler Program Systems Using RFID Technology Require Enhanced Security

                                 Page 28
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
